                                                                                                                                           1
                                                                                                                                           I
                                                                                                                                           I
10/20/ 2008          13:24      oooooaoeoo                             LOS ANGELES DIG                                   PAGE      05/05   I
 Dot 15 d9 12.44 n .                                                                                                          f'.2




                                  NATIONAL RAILROAO PASSENGER CORPOnA'l'YON
                                        OrFlCll, Ol~ INSJ.'E cTOn GENE RAL
                                          OJ!FIC(£ OF INVESTIGATIONS
                                             'lJI/VESTIGA TTVE CI,OSI NG lml'OR 'r


     TITLE ; Otho,·Un.ulhuriz~d Use of AJlIlrak Proprietary IlIfonnaliOtI CASE
                                                                               NUMllRR: 08-051
     DATE: OJ.llllil'OX{l':              ~
     REPOR'l' l'lmPA Rlm ll'Ir. _ _ SAl                                             SA f'"
     1. 17INDINGS OIl FACt' ANn REJ!J2MMEWlATlONS
    A. FINDINGS OF FACT

                1.       TIle Office of mspcolol' Gcneral ("OIG"), Oflice of Inv¢sti~
                     '. Infomlation nlioBiug U,QI while omployed as a CUllllot!OJJ~          ~ of _
                                                                                                     ~

                        _             , former Amtrak Englne~l'iJ>g Employee ~rovidcd Humerous
                     . Amtmk documents flnd illfonnation 10 a ~Iatlon do.ignc,·I,jrcd by _          Tltese dvvulIlollls
                        included: Int~mal Engineering praotices, lemplate designs 1rom ilia Stolldnrds Book,
                                                                                                                varioliS
                        photog'tuJlhs of Amtrak stations, Amtrak Procurement Requisitions 1bl' other slatlon
                        010. MnllY ofV,csc dOUlUnems reflected the Amtmk logo .                              .tlroJ."'ts,

            2.         •     conilfmed to m that ho h"d l'Orfonllod cOI1,uUlug wurk fol' _ , and that
                                                                                                                    he had
                       utilizcd Amtrak informution aJld doc\llllcl1ts tlmt he hncl in his possession since he
                                                                                                              left AJ.I\trnk,
            3.         01 cou1irllled thai •       had not received authorization        from Amtrak to reloaso Amtrak
                       .information 0,' records to _ :

           4.
                       i!!!
                             se tetl\b
                                  ,
                                       el~
                                     2008    iS '1I d nn Administrativo Report to
                                          01 16,
                          ormation an reeor s,
                                                     " detruling                 .'s
                                                                       \lU~lttlloxizcd


           5,          On September 23, 2008, OI received ~onsc fi'om _                          illdic.'iting that he had sent
                      written notification to .lnsl ructl ng_ that his release of Amtrak information
                                                                                                                    to_
                       was I"'prol'0" ~nd a vioialiuu IIr Amtrak polley,                      also indicated that . was
                      a~lvlscd to stop disolosing Amlrnk infonnatloll, amI to Proml)Uy l'eh(rn
                                                                                                       1U1Y Amtrak materials
                      in his Ilossesslon \0 Arntmk                         • rool)onoo to or furthoJ iudjolltetl thnt Ito lI.ad
                      instnu:ted \Ilembol's of the Engineering Dcparlmc,\t to revIew Amtl'a~ 's Ethlc.11 Conduo
                                                                                                                          t ijUO
                      Conflict of mtcrcs! I?Olicy, 1'/1 lI\ui\bel' 1.3 ,I,

  B. RECOMMENDATIONS

   1. Allogation                                                    informntiOll,




 CIO$llIg Report 08·05 J.docL                    Pogo 1of 1
